          Office of Inspector General




June 5, 2006

LEE R. HEATH
CHIEF POSTAL INSPECTOR

SUBJECT:       Audit Report - Postal Inspection Service Emergency Preparedness for
               Hurricane Katrina (Report Number SA-AR-06-005)

This report presents the results of our self-initiated audit of the Postal Inspection Service
Emergency Preparedness for Hurricane Katrina (Project Number 06YG011SA001). Our
overall objective was to assess the Postal Inspection Service’s implementation of
emergency preparedness plans and programs before, during, and after the landfall of
Hurricane Katrina.

The Postal Inspection Service responded to Hurricane Katrina rapidly and successfully
under very difficult and unprecedented circumstances and implemented actions
consistent with the Integrated Emergency Management Plan. More than 300 postal
inspectors and postal police officers responded immediately to safeguard U.S. Postal
Service employees, provide security guidance to postal managers, and ensure that
infrastructures were secure and operational. Further, Postal Inspection Service
personnel escorted fuel and other recovery-related goods (for example, lights and
generators) into Alabama, Louisiana, and Mississippi. The Postal Inspection Service
also initiated an educational campaign to prevent fraud schemes related to Katrina relief
efforts.

This report contains no recommendations. We discussed the report with Postal
Inspection Service management and they opted not to provide comments.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Sandra Bruce,
director, Oversight of Investigative Activities, or me at (703) 248-2300.

   E-Signed by Mary Demory
ERIFY authenticity with ApproveI



Mary W. Demory
Deputy Assistant Inspector General
 for Headquarters Operations

Attachments
cc: Mary Anne Gibbons
    Henry A. Pankey
    William E. Kezer
    Zane M. Hill
    Steven R. Phelps
Postal Inspection Service Emergency Preparedness for                         SA-AR-06-005
 Hurricane Katrina


                                              INTRODUCTION
Background                         Hurricanes Katrina and Rita. On August 29, 2005,
                                   Hurricane Katrina (Katrina) heavily damaged a sizable area
                                   across the Gulf Coast region, including Alabama, Louisiana,
                                   and Mississippi. Katrina developed sustained winds of
                                   175 miles per hour with winds extending 120 miles from its
                                   center.1 New Orleans continued to sustain damage after the
                                   storm’s impact because much of New Orleans is below sea
                                   level and the levees designed to protect against floods could
                                   not contain Katrina’s 15-foot storm surge.

                                   Levees failed in four locations along three canals, flooding
                                   New Orleans and creating a catastrophic event. Katrina was
                                   an unprecedented event projected to cost the U.S.
                                   Government up to $200 billion. Less than a month after
                                   Hurricane Katrina made landfall, on September 24, 2005,
                                   Hurricane Rita hit the Texas-Louisiana border as a Category
                                   3 storm, flooding parts of Louisiana again.

                                   Congressional Interest. Anticipating inquiries from members
                                   of Congress, the President’s Council on Integrity and
                                   Efficiency tasked the inspector general community with
                                   assuring appropriate oversight of financial and procurement
                                   processes and operations regarding Katrina activities.

                                   As a result, the U.S. Postal Service Office of Inspector
                                   General (OIG) established a task force to review the Postal
                                   Service’s Katrina activities. The OIG has conducted several
                                   reviews of Postal Service activities associated with the
                                   hurricanes, including procurement, employee safety,
                                   facilities, mail processing, delivery, transportation
                                   operations, and emergency preparedness. See the
                                   appendix for a list of OIG reports on the Postal Service’s
                                   Katrina response, recovery, and reconstruct efforts.

                                   Postal Inspection Service. As a law enforcement agency,
                                   the Postal Inspection Service’s mission is to protect the
                                   Postal Service, its employees, and its customers from
                                   criminal attack and to protect the nation’s mail system from
                                   criminal misuse. Postal inspectors respond to a wide variety
                                   of man-made and natural disasters in the United States.


1
    According to the National Oceanic and Atmospheric Administration.



                                                          1
Postal Inspection Service Emergency Preparedness for                                     SA-AR-06-005
 Hurricane Katrina


                                 To assist the Postal Service in responding to emergencies,
                                 the Postal Inspection Service serves as liaison to both the
                                 Postal Service and external law enforcement officials, and
                                 also as incident commander for certain emergencies
                                 involving a criminal investigation.

                                 The emergency preparedness process includes establishing
                                 a high state of emergency preparedness through better
                                 planning, process integration, and field support to best serve
                                 the national security interests of the country, to properly
                                 safeguard employees and customers, and to protect the
                                 critical assets of the Postal Service.

                                 Emergency Preparedness. In January 2004, the Postal
                                 Service issued a memorandum to establish the Integrated
                                 Emergency Management Plan (IEMP) as the one plan for
                                 the Postal Service to mitigate, prepare for, respond to, and
                                 recover from any natural disaster or man-made hazard. The
                                 IEMP standardizes the emergency management process
                                 and incorporates incident-specific planning efforts for the
                                 Postal Service into a single comprehensive document that
                                 will serve as the core guide for emergency management, as
                                 required by Homeland Security Presidential Directive 5.2

                                 Postal Inspection Service IEMP. The Postal Inspection
                                 Service modified the Postal Service’s standard IEMP
                                 template and established a template specific to law
                                 enforcement functions. In calendar year 2005, the Postal
                                 Inspection Service began using the IEMP in its divisions.

                                 The standardized IEMP template is designed to consolidate
                                 the Postal Inspection Service’s stand-alone plans
                                 (contingency plan, emergency operations plan, continuity
                                 of operations plan, crisis management plan, and
                                 emergency-specific plans). It also establishes emergency
                                 management teams, defines team roles and responsibilities,
                                 and integrates the Postal Inspection Service’s emergency
                                 management activities with the country's National Response
                                 Plan.




2
 Under Homeland Security Presidential Directive 5, all federal departments and agencies, including the Postal
Service and Postal Inspection Service, are required to adopt a comprehensive plan addressing all hazards.



                                                         2
Postal Inspection Service Emergency Preparedness for                     SA-AR-06-005
 Hurricane Katrina




Objective, Scope,            Our overall objective was to assess the Postal Inspection
and Methodology              Service’s implementation of emergency preparedness plans
                             and programs before, during, and after the landfall of
                             Katrina.

                             To accomplish our objective, we:

                                 •   Met with Postal Inspection Service officials from
                                     headquarters, divisions, and domiciles.

                                 •   Reviewed emergency management policies and
                                     plans of the Postal Service and the Postal Inspection
                                     Service.

                                 •   Reviewed Postal Inspection Service information (such
                                     as training and watch desk reports) pertaining to
                                     emergency preparedness and the activities
                                     associated with Katrina.

                                 •   Observed security operations at temporary post office
                                     facilities.

                             In addition, we reviewed data from the Postal Inspection
                             Service Investigative Information System (ISIIS). However,
                             we did not assess the reliability of the computer-generated
                             data from ISIIS. Based on our comparative analyses of data
                             obtained from ISIIS and discussions held with officials
                             regarding their use of ISIIS, we consider the data to be
                             sufficiently reliable to support the opinions and conclusions
                             in this report.

                             We conducted the review from September 2005 through
                             June 2006 in accordance with generally accepted
                             government auditing standards and included such tests of
                             internal controls as we considered necessary under the
                             circumstances. We discussed our observations and
                             conclusions with management officials and included their
                             comments where appropriate.

Prior Audit Coverage         Audit of Postal Inspection Service’s Emergency
                             Preparedness (Report Number SA-AR-05-001, January 5,
                             2005). The audit found that the Postal Inspection Service




                                                  3
Postal Inspection Service Emergency Preparedness for                 SA-AR-06-005
 Hurricane Katrina



                             has many contingency plans for incidents such as mail
                             bombs, robberies, and fires and was, at the time of the
                             report, developing an IEMP specific to its law enforcement
                             requirements in response to Homeland Security Presidential
                             Directive 5. We did not make any recommendations
                             because the Postal Inspection Service was developing its
                             IEMP.

                             OIG Letter Report, Emergency Preparedness Training
                             (Report Number DA-OT-04-004, July 23, 2004). The review
                             found that training sessions on comprehensive emergency
                             management planning were helpful in disseminating
                             headquarters policies and terminologies to all levels. The
                             Postal Service was continually providing guidance and
                             policy. However, the Postal Service did not consistently
                             communicate emergency preparedness guidance, and
                             therefore emergency management teams did not always
                             follow the guidance. The OIG suggested, and management
                             agreed, that the Office of Emergency Preparedness should
                             assess the field IEMPs and assist them in correcting any
                             inconsistencies with policies and guidance.




                                                  4
Postal Inspection Service Emergency Preparedness for                                    SA-AR-06-005
 Hurricane Katrina


                                            AUDIT RESULTS
Noteworthy Actions                The Postal Inspection Service responded to Katrina rapidly
and Responses to                  and successfully under very difficult and unprecedented
Hurricane Katrina                 circumstances and implemented actions consistent with the
                                  IEMPs. Over 300 postal inspectors and postal police
                                  officers responded immediately to safeguard Postal Service
                                  employees, provide security guidance to postal managers,
                                  and ensure that infrastructures were secure and
                                  operational.

                                  Further, Postal Inspection Service officials requested and
                                  obtained right-of-way authority from the Federal Emergency
                                  Management Agency (FEMA) to ensure inspectors could
                                  carry out their mission. Subsequently, Postal Inspection
                                  Service personnel escorted fuel and other recovery-related
                                  goods (such as lights and generators) into Alabama,
                                  Louisiana, and Mississippi. The Postal Inspection Service
                                  also initiated an educational campaign to prevent fraud
                                  schemes related to Katrina relief efforts.

                                  IEMP Implementation. The Houston and Atlanta divisions,
                                  which have jurisdiction over the Katrina-affected areas in
                                  Alabama, Louisiana, and Mississippi, had completed their
                                  IEMPs before Katrina. Additionally, in calendar year 2005,
                                  the Postal Inspection Service provided training in the IEMP
                                  and the related Incident Command System3 to at least 14 of
                                  the 18 divisions.

                                  The Postal Inspection Service IEMP assisted the Postal
                                  Inspection Service with implementing procedures to protect
                                  employees and maintain operations more effectively during
                                  Katrina. The Postal Inspection Service implemented the
                                  IEMP by:

                                       •    Establishing emergency operations centers (EOC)4
                                            at the Atlanta Division, Mississippi and Mobile
                                            domiciles, and Baton Rouge Post Office.



3
  The Incident Command System is a management system designed to integrate resources from numerous
organizations into a single response structure using common terminology and common processes.
4
  The EOC is a temporary or permanent physical location for coordinating information and resources to support
domestic incident management activities.




                                                         5
Postal Inspection Service Emergency Preparedness for                     SA-AR-06-005
 Hurricane Katrina



                                  •    Assuming roles and responsibilities (for example,
                                       incident commander, operations section chief, and
                                       logistics section chief) and using the Incident
                                       Command System to improve coordination of
                                       planning and response activities among functional
                                       areas and minimize duplication of planning efforts.

                                  •    Maintaining liaison with federal and local law
                                       enforcement officials. Postal inspectors worked with
                                       emergency responders from FEMA, Louisiana,
                                       Mississippi, and Alabama during the response. The
                                       inspectors coordinated with the officials to obtain
                                       much-needed fuel and other recovery-related goods
                                       such as lights and generators.

                              Emergency Preparedness Equipment. In response to the
                              failure of communications equipment, the Postal Inspection
                              Service put in place effective alternatives that were vital to
                              reestablishing communications during the aftermath of
                              Katrina. This included procuring and installing emergency
                              satellite systems valued at $962,351. Further, based on
                              lessons learned, the Postal Inspection Service is reviewing
                              and testing existing and new communications equipment to
                              better prepare for future disasters.

                              Additionally, the Postal Inspection Service uses the Postal
                              Emergency Management System (PEMS) primarily to
                              receive emergency alerts (for example, natural disasters
                              and Biohazard Detection System incidents). Therefore, the
                              Postal Inspection Service is reviewing software for
                              emergency incident management that will assist them with
                              creating, tracking, and managing emergencies through all
                              stages.

                              Safeguarding Employees. Before Katrina made landfall, the
                              Postal Inspection Service assisted with evacuating Postal
                              Service employees in the affected facilities. As a result,
                              employees were safeguarded and no injuries to employees
                              were reported. During the immediate aftermath of Katrina,
                              the Postal Inspection Service focused its efforts on locating
                              6,052 employees for whom the Postal Service could not
                              account.




                                                  6
Postal Inspection Service Emergency Preparedness for                                      SA-AR-06-005
 Hurricane Katrina



                                  They accounted for each employee, which included
                                  determining the employee’s physical condition. Thus, all
                                  Postal Service employees were accounted for within
                                  4 weeks after Katrina’s landfall.

                                  Securing Facilities and Protecting Assets. The Postal
                                  Inspection Service secured Postal Service assets and
                                  provided security at numerous facilities in affected areas.
                                  For example, postal inspectors and postal police officers
                                  provided 24-hour security at post office facilities, directed
                                  traffic, and controlled crowds. Postal inspectors also
                                  provided security during mail recovery operations, reviews
                                  of damaged mail on postal property, and contractors’ review
                                  of accountable property.

                                  Facility Assessments. To expedite recovery operations,
                                  the Postal Inspection Service, in coordination with a
                                  cross-functional Postal Service group,5 developed a
                                  standardized facility assessment tool (FAT) to address
                                  safety, structural, and security issues. Field assessment
                                  teams used the FAT to report the conditions of impacted
                                  facilities to the Postal Service command center. As a result,
                                  the Postal Service was able to prioritize its cleanup and
                                  restoration activities and ensure employees, contractors,
                                  and customers were protected from Katrina-related hazards.

                                  Together with the Postal Service’s safety and facilities team,
                                  the Postal Inspection Service conducted 426 security facility
                                  assessments of the extent of damage to Postal Service
                                  buildings and property, including contamination, to
                                  determine whether the facilities were suitable for
                                  reoccupation. Overall, the Postal Service identified
                                  1756 severely damaged and five completely destroyed
                                  facilities. The Postal Service estimated the cost to repair
                                  and replace these facilities and equipment at $126 million.

                                  Escort of Fuel and Other Goods. Postal inspectors escorted
                                  fuel and other recovery-related goods7 into affected states.
                                  They also provided 112 security escorts for Postal Service
                                  employees and contractors to distribute Social Security

5
  The cross-functional group included representatives from Safety, the Office of Emergency Preparedness, Facilities,
and contractor support.
6
  The 175 severely damaged facilities included 64 Postal Service-owned and 111 leased facilities.
7
  This included lights, generators, and stamp stock needed to set up retail operations.



                                                         7
Postal Inspection Service Emergency Preparedness for                    SA-AR-06-005
 Hurricane Katrina


                              checks to Louisiana and Mississippi residents who could not
                              receive regular mail delivery.

                              Task Force Campaigns. The Postal Inspection Service is
                              an active member of the Department of Justice’s Hurricane
                              Katrina Task Force. As a member of the task force, the
                              Postal Inspection Service initiated an educational campaign
                              to prevent fraud schemes related to Katrina relief efforts.
                              This campaign included a full page advertisement in a major
                              newspaper and magazine. The Postal Inspection Service
                              also assisted the Securities and Exchange Commission with
                              a similar educational campaign.

                              Investigative Activities. As of October 25, 2005, the Postal
                              Inspection Service made seven arrests in connection with
                              fraudulent schemes related to Katrina relief efforts. These
                              schemes included false claims for FEMA benefits and other
                              government-benefit frauds, fraudulent charities, and identity
                              theft.

Overall Assessment            The Postal Inspection Service’s actions taken to implement
                              the IEMP, update its policies, and provide training in the
                              Incident Command System enhanced the Postal Inspection
                              Service’s emergency preparedness and response to
                              Katrina. Therefore, we are not making any
                              recommendations. Also, these actions are consistent with
                              the steps toward implementing the IEMP, as described in
                              the OIG’s previous audit report, Audit of Postal Inspection
                              Service’s Emergency Preparedness (Report Number
                              SA-AR-05-001, January 5, 2005).

                              We will continue monitoring the Postal Inspection Service’s
                              hurricane response efforts, including progress and
                              emergency preparedness initiatives, and will conduct a
                              follow-up review in the future.




                                                  8
Postal Inspection Service Emergency Preparedness for                 SA-AR-06-005
 Hurricane Katrina



                         APPENDIX. LIST OF OIG REPORTS
Reports Issued in Final

•   Postal Service Actions to Safeguard Employees from Hurricane Katrina (Report
    Number HM-AR-06-002, February 15, 2006). The OIG concluded that the Postal
    Service took appropriate actions to notify employees before Katrina made landfall,
    as described in the IEMPs and supplemental hurricane plans. Postal Service
    employees were safeguarded, and no injuries to employees were reported before
    Katrina’s landfall. The OIG made no recommendations.

•   Mail Processing Operations in the Wake of Hurricanes Katrina and Rita (Report
    Number NO-MA-06-002, March 27, 2006). The report concluded that the Postal
    Service successfully reestablished mail processing operations in the aftermath of the
    hurricanes by implementing emergency management plans to move the mail,
    assessing damage to the mail processing network, and quickly reestablishing mail
    processing operations in the Gulf Coast region. The report also identified several
    issues which could improve the Postal Service’s response to future disasters. The
    Postal Service should provide an adequate communications structure, identify
    adequate contingency sites outside the hurricane zone, and secure adequate
    back-up power supplies. Because these issues were not addressed, mail
    processing recovery efforts were hampered, and some mail was delayed or not
    delivered.

    The OIG recommended Postal Service management revise, validate, and utilize a
    communications plan, assess existing mail processing contingency sites, and
    assess electrical requirements at mail processing facilities. Management agreed
    with OIG findings and recommendations and has initiatives in progress, completed,
    or planned addressing the issues in this report.

•   National Change of Address – Emergency Preparedness (Report Number
    IS-AR-06-005, March 30, 2006). The OIG concluded that Postal Service
    management responded diligently to Hurricane Katrina by redirecting mail to
    affected customers under very tight time constraints. However, the Postal Service
    could benefit from consolidating essential procedures for emergency changes of
    address in a formalized policy such as the IEMP for distribution throughout the
    Postal Service.

    The OIG recommended Postal Service management: (1) identify emergency
    change of address procedures established during Hurricane Katrina that could be
    useful in responding to future national disasters; (2) establish a Postal Service-wide
    steering committee with the authority to declare an emergency for a specific location
    and ensure the Postal Service takes action to maintain continuity of service during
    emergencies; (3) incorporate the procedures identified in recommendations 1 and 2



                                                  9
Postal Inspection Service Emergency Preparedness for                SA-AR-06-005
 Hurricane Katrina


    into formal policy, such as the IEMP or other policies, to address Postal Service
    operations regarding change of address emergency situations; and (4) disseminate
    these emergency procedures throughout the Postal Service so that managers in
    areas affected by an emergency will have authority to respond in a timely manner.

    Management agreed with recommendation 1 and disagreed with recommendations
    2, 3, and 4. Although management disagreed with recommendations 2, 3, and 4 as
    stated, management provided alternative recommendations which were acceptable
    and responsive. Management’s actions taken should correct the issues identified.

•   Review of Postal Service’s Replacement and Repair of Facilities Affected by
    Hurricane Katrina (Report Number FA-MA-06-001, May 26, 2006). The OIG
    reported that Postal Service facilities quickly and successfully responded to
    Hurricane Katrina. Facilities headquarters and the Southeast and Southwest
    Facilities Service Offices (FSO) worked with the impacted areas and districts to
    resume operations as quickly as possible by assessing damage and finding
    alternatives. In addition, the FSOs suspended rent payments for leased facilities
    that were deemed unusable as a result of the hurricane. The report also identified
    several areas where the Postal Service could improve its response to future
    disasters. These areas included improving accessibility to facilities, following
    standardized lockdown procedures, developing procedures for prearranging mobile
    home and trailer haulers, improving communications, providing for appropriately
    sized generators, and securing multiple national cleanup contracts.

    The OIG recommended and Postal Service management agreed to develop
    procedures to ensure that postal response personnel have emergency access to
    facilities, postmasters follow standard lockdown procedures, and prearrangements
    are made with mobile home/trailer haulers. In addition, we recommended and
    Postal Service management agreed to distribute satellite phones to the FSOs or
    develop another alternative to improve communication, provide for acquiring
    appropriately sized generators, and establish national contracts to expedite cleanup
    efforts.

•   Postal Inspection Service’s Procurement Transactions Related to Hurricane Katrina
    Response, Recovery, and Reconstruct Efforts (Report Number SA-AR-06-004,
    May 30, 2006). The OIG concluded that overall, the U.S. Postal Service and the
    Postal Inspection Service had effective controls over procurement transactions
    related to Hurricane Katrina efforts. Procurement transactions were valid,
    authorized, and supported by the appropriate documentation; however,
    management could strengthen controls to ensure that International Merchant
    Purchase Authorization Card (IMPAC) cardholders review, sign, and date U.S. bank
    statements within 5 days of receipt as required.




                                                  10
Postal Inspection Service Emergency Preparedness for                SA-AR-06-005
 Hurricane Katrina


    The OIG recommended and management agreed that authorizing officials will
    ensure all IMPAC credit cardholders review, sign, and date U.S. bank statements
    within 5 days of receipt, as required.

Reports Issued in Draft

•   Postal Service Emergency Preparedness for Hurricanes Katrina and Rita (Report
    Number SA-AR-06-DRAFT, May 15, 2006) The Postal Service responded to
    Hurricanes Katrina and Rita rapidly and successfully under difficult and
    unprecedented circumstances. As a result, the Postal Service safeguarded
    employees, continued to deliver the mail in the Gulf Coast region, and protected the
    sanctity of the mail and the nation’s mail system. While the Postal Service took
    noteworthy actions in responding to the hurricanes, opportunities exist to enhance
    emergency preparedness planning and responses in the event of a future natural
    disaster.

    We recommend the vice president, Emergency Preparedness, in coordination with
    the Southeast Area vice president and Southwest Area acting vice president:
    (1) revise the IEMP to sufficiently address area and headquarters level functions,
    including coordination with the federal government during responses that require
    Postal Service involvement in the National Response Plan; (2) ensure field
    operations personnel complete, approve, validate, and implement IEMPs that
    incorporate stand-alone plans for hurricanes and lessons learned; (3) develop an
    alternative incident management system to assist the Postal Service in managing
    emergencies throughout each stage of emergency preparedness; and (4) establish
    performance measures for all hazards to achieve emergency management goals
    that effectively enhance the Postal Service’s emergency preparedness and
    incorporate them into the core goals for headquarters, area, and field level
    emergency managers.

    We also recommend the vice president, Emergency Preparedness identify and
    develop mandatory emergency preparedness training at each level of the Postal
    Service for hazards, as necessary based on risks and vulnerabilities. Management’s
    comments are due in June 2006.

•   Hurricane Katrina – The Effectiveness of the Postal Service Transportation and
    Logistics Network (Report Number NL-AR-06-DRAFT, May 9, 2006). The OIG
    concluded that the Postal Service’s anticipation of Hurricane Katrina and rapid
    response to the storm’s impact on the Gulf Coast preserved Postal Service funds
    and other resources and facilitated the task of reconstituting the Postal Service
    network. The Postal Service implemented timely actions to suspend and terminate
    unneeded highway contract routes in the hurricane emergency zone, saving the
    Postal Service about $2.8 million, and made those funds available for emergency
    transportation requirements. Additionally, despite the diligent efforts of Postal




                                                  11
Postal Inspection Service Emergency Preparedness for                  SA-AR-06-005
 Hurricane Katrina


   Service supply management and contracting officials to protect federal resources,
   the Postal Service may have incurred more than $30 million in excess Hurricane
   Katrina related fuel costs, driven by Gulf Coast oil industry disruption, and resulting
   nationwide fuel price increases.

   The OIG recommended that Postal Service officials verify the termination of
   unneeded highway contract routes; coordinate with appropriate federal authorities to
   better leverage Postal Service capacity during future national emergencies; and
   revise or validate IEMPs and other appropriate policies. Management’s comments
   are due in June 2006.




                                                  12
